<html>
<title> - INFRASTRUCTURE: THE ROAD TO RECOVERY</title>
<body><pre>[Senate Hearing 116-249]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-249

                  INFRASTRUCTURE: THE ROAD TO RECOVERY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 4, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-135 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 4, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     7

                               WITNESSES

McGough, Steve, Chairman of the American Road and Transportation 
  Builders Association, and President and Chief Financial Officer 
  of HCSS........................................................    10
    Prepared statement...........................................    13
    Responses to additional questions from Senator Wicker........    65
    Response to an additional question from Senator Whitehouse...    66
    Responses to additional questions from Senator Duckworth.....    66
Holtz-Eakin, Doug, President, American Action Forum..............    69
    Prepared statement...........................................    71
    Response to an additional question from:
        Senator Sullivan.........................................    86
        Senator Whitehouse.......................................    87
Fischer, Hon. Greg, Mayor, Louisville, Kentucky, and incoming 
  President, U.S. Conference of Mayors...........................    88
    Prepared statement...........................................    91
    Response to an additional question from:
        Senator Whitehouse.......................................   100
        Senator Gillibrand.......................................   101
    Responses to additional questions from Senator Duckworth.....   106

                          ADDITIONAL MATERIAL

Letter to Senator Mitch McConnell et al. from Advocates for Snake 
  Preservation et al., May 18, 2020..............................   151
Letter to Senators Barrasso and Carper from the Alternative Fuels 
  & Chemicals Coalition, June 2, 2020............................   159
Statement for the Record of the American Society of Civil 
  Engineers, June 4, 2020........................................   168
Letter to Senators Barrasso and Carper et al. from the 
  Congressional Sportsmen's Foundation, June 3, 2020.............   172
Statement of the Design-Build Institute of America, June 4, 2020.   174
Letter to Senators Barrasso and Carper from the National 
  Association of Counties, June 2, 2020..........................   177
Submission for the Record from the National Propane Gas 
  Association, June 4, 2020......................................   178

 
                  INFRASTRUCTURE: THE ROAD TO RECOVERY

                              ----------                              


                         THURSDAY, JUNE 4, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:06 a.m. in 
room G50, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Sullivan, Boozman, Wicker, Ernst, Cardin, 
Whitehouse, Gillibrand, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Before I address the topic of today's hearings, I do want 
to say a few words about what is happening in communities 
across our country today. This is a time of great pain and 
unrest for our Nation. Americans are truly outraged by recent 
killings. Anyone who watched the video of the murder of George 
Floyd has to be horrified and heartbroken.
    The resulting peaceful protests about police abuse against 
any American citizen are important and necessary. Our Nation 
needs to listen to the voices of African Americans about police 
brutality. Every American citizen deserves justice under the 
law.
    Some of the peaceful protests have been hijacked by violent 
criminals. The destruction, the looting, and the arson must 
stop. Those who commit these crimes dishonor the memory of 
George Floyd, and they dishonor the cause for which the 
peaceful protestors first took to the streets. Now is a moment 
for Americans to come together, to listen, and to heal.
    The goal of this hearing today is to examine how rebuilding 
America's infrastructure will help our economy recover from the 
coronavirus pandemic. We will examine how bipartisan 
infrastructure legislation passed by this Committee will 
stimulate economic recovery and growth.
    The coronavirus pandemic has resulted in an economic 
crisis. As Congress considers what can be done to help the 
economy recover, funding our Nation's infrastructure should be 
at the top of the list. Investments in highways and bridges 
create jobs, reduce the costs of goods and services, and grow 
the economy.
    A Standard and Poor's study found a $1.3 billion investment 
in infrastructure results in 2,900 jobs being added to the 
construction sector alone.
    In a story published last week in the Cowboy State Daily, 
the University of Wyoming economist Rob Godby explained that 
infrastructure constructions, he said, is a tried and true way 
of recovering an economy that has been impacted by a deep 
recession. It is clear that strong, sensible infrastructure 
investments create jobs and spur economic recovery.
    The Senate has bipartisan legislation ready to go. This 
Committee has taken significant steps toward renewing our 
Nation's infrastructure investments.
    Last month, we unanimously passed two bipartisan water 
infrastructure bills, America's Water Infrastructure Act of 
2020, and the Drinking Water Infrastructure Act of 2020. 
Together, these two bills will help create jobs and protect 
communities by rebuilding our aging dams, levies, ports, and 
drinking water systems.
    They are a perfect complement to the primary focus of 
today's hearing, America's Transportation Infrastructure Act, 
which this Committee unanimously passed and reported last July.
    This historic highway bill authorizes $287 billion over 5 
years from the Highway Trust Fund. It will provide record 
levels of investment to fix our roads and bridges, to create 
jobs, and to boost our economy. It will give States increasing 
funding and the certainty that they need for planning projects.
    Now more than ever, America needs this highway 
infrastructure bill to keep our economy moving ahead.
    The alternative to passing our bill would be to rely on 
short term extensions of the current law. This would be a 
mistake. Our Committee has repeatedly heard expert testimony 
that month to month extensions make it harder for States and 
communities to plan.
    In the past, funding uncertainties from such short term 
extensions have led to project delays, cancellations, and 
higher costs. These delays would hurt our economic recovery.
    We are less than 4 months away from the Highway Trust Fund 
authorization expiring. This simply cannot happen, especially 
during these pandemic-caused economic downturns.
    To make matters worse, the Highway Trust Fund is rapidly 
approaching insolvency. Before the pandemic, the Congressional 
Budget Office projected the Highway Trust Fund would become 
insolvent sometime in 2021. Now, with Americans driving less, 
the trust fund will likely run out of money sooner.
    This is why I am pushing for the Senate to pass our highway 
infrastructure legislation. Our bill is the right medicine for 
our roads and our economy. It will help rural communities; it 
will help cities; it will help all 50 States.
    In its 2014 special report entitled Transportation 
Investments in Response to Economic Downturns, the National 
Academies of Science Transportation Research Board concluded 
that any future transportation stimulus program should allocate 
most funds according to established formulas. Our highway bill 
does just that by sending 9 out of every 10 dollars directly to 
States through formula funding.
    Formulas give States the flexibility to address their own 
transportation needs. What works for coastal cities may not 
work for communities in the heartland.
    The formula approach is also the best method for rapidly 
aiding economic recovery through infrastructure investments.
    America's Transportation Infrastructure Act will also speed 
up project delivery by cutting red tape and simplifying agency 
reviews. Reducing the time it takes to get environmental 
permits means that we can get projects done faster, cheaper, 
better, smarter.
    While speeding up project delivery, our legislation will 
also enhance safety. The bill targets investments to fix our 
aging bridges, reduce fatalities, protect pedestrians, and help 
minimize vehicle-wildlife collisions. Ultimately, building 
safer, longer lasting roads is one of the best ways to protect 
communities and to keep our economy moving forward.
    Passing America's Transportation Infrastructure Act, 
together with our two water infrastructure bills, is critical 
for our Nation's economic recovery. I look forward to hearing 
from today's expert witnesses on this important topic.
    I would now like to turn to Senator Carper for his opening 
comments.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman. I thank you for 
your comments.
    In the House of Representatives, Senator Inhofe and I used 
to serve together. From time to time, we would hear our 
colleagues say words that we wanted to be associated with. We 
would say, I would like to be associated with the words of that 
particular member. I just want to be associated with your 
words, especially the beginning of your comments, today.
    I want to thank all of our witnesses for joining us. I 
especially want to Mayor Greg Fischer from Louisville for 
joining us virtually, and doing so at a very difficult time.
    It is never an easy time to be a Mayor of a major city. But 
today especially, to be Mayor of Louisville is especially 
challenging, and our thoughts and prayers are with you and our 
gratitude is with you for joining us today, Mayor Fischer.
    As the Chairman has said, the recent murders of George 
Floyd in Minneapolis, and I would add Breonna Taylor in 
Louisville, have sparked widespread civil unrest across our 
country. Over the past week, literally millions of Americans 
have protested the death of unarmed Black Americans and the 
systemic racial inequities and injustice that still pervade too 
many aspects of our society.
    One of those Americans was a fellow named David McAtee. He 
was a small business owner in Louisville some of you may have 
heard of. He was shot and killed by authorities while he was 
protesting early Monday morning.
    According to his family, David was a pillar in their 
community, and at his popular barbeque stand, he would actually 
literally serve members of law enforcement for free.
    We have since learned that the police officers involved 
with the National Guard personnel who shot and killed David 
McAtee had not activated their body cameras during the 
incident.
    This institutional failure has only created more feelings 
of anger, fear, frustration, and helplessness throughout the 
Louisville community and throughout our country.
    I know it will come as a surprise to some, but many of our 
fellow Americans are feeling real pain and suffering today, and 
they have been feeling it for a long time. Meanwhile, our 
country is attempting to safely reopen and return to some 
semblance of normalcy in the midst of a deadly pandemic, the 
likes of which we haven't seen in 100 years.
    We are facing the greatest economic downturn and the 
highest unemployment rates since the Great Depression.
    While most communities are calling for justice through law 
abiding, peaceful protests, others have experienced violent 
riots and looting.
    I don't believe it is hyperbole to say that the soul of our 
Nation is being tested as it hasn't been in a long time. The 
unspoken question for us today as we gather is, what do we do 
about it, and what, if anything, does all of this have to do 
with improving our surface transportation infrastructure?
    I am convinced that every member of this Committee 
understands that it is our duty as public servants to serve all 
of our constituents, even the ones who haven't voted for us and 
maybe never will. Right now, that means listening to those 
among us who have oftentimes gone unheard and to try and put 
ourselves in their shoes, golden rule, put ourselves in their 
shoes to not only acknowledge the pain that people of color are 
experiencing in our country and the racism that too many of 
them face, but to do something about it.
    Here is the good news: We can do something about it. In the 
midst of all this turmoil lies opportunity. It is our job to 
find that opportunity and work together to move this country, 
which we love and revere, as imperfect as we are, forward.
    That brings us to the subject of today's hearing. 
Infrastructure can be a part, a big part, of a greater, multi-
faceted solution that brings equity and opportunity to all 
communities, but where and how we invest really matters.
    Infrastructure can refer to water that is safe for us to 
drink when we turn on the faucet; it can refer to safely 
treating the effluent we create before it finds its way into 
our waterways and our groundwater. Infrastructure can refer to 
broadband deployment for farm communities and many urban areas 
where students have found it almost impossible to keep up with 
their schoolwork because they lack Internet access.
    Today, we focus on a critically important part of our 
Nation's infrastructure: Our roads, our highways, our bridges, 
our railways, and our transit systems.
    I know we don't always think of it this way, but they are 
not only important in moving all kinds of cargo across America, 
as well as giving the American people the freedom to go where 
they want and where they need to go, but colleagues, our 
transportation infrastructure, done right, can also help to 
connect and uplift communities by expanding access to 
opportunities such as schools and better paying jobs that may 
not have been accessible to those who have always found 
themselves living on the wrong side of the track.
    That is why we need to ensure that the infrastructure 
investment we make and the roads, highways, and bridges we 
build help us create a more nurturing environment for job 
creation and job preservation for all of our communities.
    In Delaware, for example, the construction of the soon to 
be completed Christina River Bridge, just south of our Amtrak 
station, is helping to spur the redevelopment of South 
Wilmington. That is a part of our city that is prone to 
flooding when heavy rainstorms, like the ones we had last 
night, occur.
    Fortunately, innovative measures were underway not to just 
help address the flooding, but also to improve connectivity for 
residents. This new bridge with pedestrian and bicycle lanes 
will expand access to new educational opportunities and to 
jobs, thousands of jobs.
    While the bridge will facilitate and alleviate traffic in 
the area, it will also help to grow the customer base for small 
businesses along our burgeoning Christina Riverfront.
    That is just one example of the kind of win-win investments 
we can and should be making in more of our infrastructure, 
those with environmental, community, and economic benefits. So 
as we discuss here in Congress today the many ways our country 
can begin to recover from this pandemic, and how we can help 
all communities in need, it is ever more important and timely 
that we talk about investing in our Nation's infrastructure.
    The surface transportation reauthorization bill that we 
unanimously approved out of this Committee in July, last July, 
America's Transportation Infrastructure Act, is a good start to 
addressing those two challenges.
    For example, as the Chairman has said, our bill would 
increase highway funding by some 17 percent over baseline in 
the first year, which would help stimulate our economy.
    At the same time, our bill would help address the climate 
crisis by investing $10 billion in low emission and resilient 
transportation projects over the next 5 years.
    As a side comment, I was talking yesterday with our 
colleagues John Kennedy from Louisiana and Cindy Smith from 
Mississippi. They tell me that something like 20 hurricanes are 
now being forecast to occur or make it to the Gulf of Mexico 
this summer. Twenty. It is unbelievable. So making investments 
real requires dollars.
    Actually, for years, I have been talking with our 
colleagues on both sides of the aisle about how to go about 
funding infrastructure and the urgent need to address the 
looming Highway Trust Fund shortfall. But in a few short 
months, that conversation will become even more urgent. This 
pandemic has greatly affected, as the Chairman has said, the 
use of our Nation's infrastructure and how we maintain funding 
for it.
    Meanwhile, the public health safety measures demanded by 
this pandemic have greatly reduced travel, and our 
infrastructure is paid for, largely, as we know, through user 
fees, including tolls, motor fuel taxes, vehicle excise taxes, 
registration fees, and the like. All these revenue sources have 
declined, in some cases, quite dramatically.
    A lot of States, cities, counties, and tribal nations are 
trying right now to balance their budgets by deciding between 
furloughs, service cuts, or canceling contracts. We owe it to 
them to reauthorize our surface transportation programs and 
fund them in sustainable and predictable ways.
    All that said, while investing in infrastructure can assist 
with long term economic recovery, it is not sufficient on its 
own. This economic downturn is almost without modern precedent, 
and the coronavirus is likely to be with us, unfortunately, for 
some time to come. So we must rise to meet the unique 
challenges and scale of these crises.
    Fortunately in recent days, I have had conversations with 
dozens of our colleagues on both sides of the aisle, Democrat 
and Republican alike, and there appears to be an emerging 
bipartisan agreement not to reward fiscal mismanagement at the 
State and local level, not to bail out unfunded pension plans, 
but to do our part to help address the grave and unparalleled 
impact on State and local budgets, on school districts, and on 
rural hospitals.
    We can provide some of the assistance that is needed by 
continuing to invest strategically and dependably--I will say 
that last one again, and dependably--in the transportation 
infrastructure of our communities. If we do, I am confident 
that we will find America off the ropes and back on the road to 
an economic recovery in the future that is stronger, more 
sustainable, and more equitable for all of us.
    I don't know a lot of Latin. I know a little bit. Two of my 
favorite words are carpe diem, let's seize the day. I think 
that is probably good words for today.
    There is another one, too, and we are reminded of it every 
time we vote in the Senate chamber, and it is e pluribus unum, 
from many, we are one.
    Senator Barrasso. Thank you, Senator Carper. We appreciate 
your comments and your leadership and the bipartisan nature of 
this bill.
    In a few seconds, we will hear from our witnesses.
    I did want to just make sure that the members knew, to just 
get a better sense of the order in which we are going to speak 
and ask questions today, we are going to try to just go 
strictly by seniority, since so many members are joining us 
remotely, and it will be easier to keep the record that way.
    Today, we are joined by three individuals. First, Mr. 
Steven McGough, who is the Chairman of the American Road and 
Transportation Builders Association; Doug Holtz-Eakin, who is 
the President of the American Action Forum; and Hon. Greg 
Fischer, who is joining us remotely, Mayor of Louisville, 
Kentucky, and the incoming President of the U.S. Conference of 
Mayors.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record, so 
please keep your statements to 5 minutes, so we will have time 
for questions. I look forward to hearing the testimony.
    Mr. McGough, we would like to start with you.

 STATEMENT OF STEVE MCGOUGH, CHAIRMAN OF THE AMERICAN ROAD AND 
 TRANSPORTATION BUILDERS ASSOCIATION, AND PRESIDENT AND CHIEF 
                   FINANCIAL OFFICER OF HCSS

    Mr. McGough. Thank you.
    Chairman Barrasso, Senator Carper, and other members of the 
Committee, thank you for holding today's hearing about the role 
Federal infrastructure investment can and should play in the 
economic recovery.
    I am 2020 ARTBA Chairman Steve McGough, President and CFO 
of HCSS, a national company that provides software solutions to 
help improve construction companies' business operations.
    Let me begin by emphasizing two points. First, shovel ready 
projects are not a solution to the Nation's current economic 
challenges. While transportation infrastructure improvement has 
positive job and salary impacts, the real value comes from 
putting in long term assets that increase the efficiency and 
productivity of the entire economy.
    According to the Federal Highway Administration, goods 
movements over the Nation's highways account for 73 percent of 
the value of domestic freight. Industries like wholesale and 
resale trade and manufacturing are two of the largest users of 
transportation services in the economy and utilize freight 
shipments for 58 percent to 65 percent of their needs.
    Second, Federal highway investment is a major contributor 
to each of your States' infrastructure networks, but it is 
effectively a silent partner. We have developed a way to 
correct that shortcoming.
    In 2018 alone, States utilized nearly $31 billion of 
Federal highway funds to begin construction activity on over 
24,000 highway improvement projects, with a total value of 
$66.7 billion.
    Thanks to the new interactive ARTBA highway dashboard, 
policymakers and the public alike can see how Federal highway 
resources were deployed by each State in a given year, dating 
all the way back to 1950. We have compiled each State's top 10 
Federal aid projects, the total number of projects, and the 
type of improvements advanced that year. The dashboard uses 
data from the Federal Highway Administration to shift the 
conversation about Federal highway investment from 
apportionment tables and obligation charts to outcomes and 
benefits.
    Mr. Chairman, the Federal Highway Program is widely 
regarded as one of the most meaningful and popular of all 
Federal discretionary spending activities. Now, we can 
articulate why.
    As an example, Wyoming in 2018 used $309 million in Federal 
highway funds to advance 262 projects with a total value of 
$370 million. The largest single recipient of these funds was a 
$20 million resurfacing projects in Sweetwater County.
    Of the Federal aid projects Wyoming moved forward with that 
year, 66 percent were for reconstruction and repair work.
    This information not only demonstrates the value each State 
receives from highway investment, but also highlights the 
potential numerous benefits from the 5 year reauthorization 
proposal this Committee approved last July. America's 
Transportation Infrastructure Act would increase highway 
investment 27 percent over the next 5 years.
    Your proposal includes common sense policy reforms that 
will expedite the delivery of needed infrastructure 
improvements and maximize the impacts of Federal resources. 
More importantly, the bill's investment growth stands in stark 
contrast to the purchasing power focus of the past 15 years.
    We have given each of you a snapshot of how your States 
benefit from the highway investment in 2018. Imagine what could 
be accomplished with the resources you proposed.
    Mr. Chairman, the recent forecast from the Congressional 
Budget Office that it could take a decade for the U.S. economy 
to recover from COVID-19 pandemic is sobering. This outlook is 
also disturbing in the context of the Nation's infrastructure 
deficit. State and local highway spending needed 8 years or 
until 2015 to recover from the pre-Great Recession levels, 
while GDP recovery occurred in 3 years.
    That lag in highway and bridge improvements activity could 
illustrate the challenging road ahead for our infrastructure 
network absent proactive action, such as enactment of the 
America's Transportation Infrastructure Act. Your proposal is 
both a robust highway program reauthorization and a 
foundational opportunity for economic recovery and growth.
    Mr. Chairman, the transportation construction industry is 
not here asking for Federal relief. Instead, we seek to be part 
of the solution to spur the meaningful economic recovery this 
Nation so desperately needs.
    We urge the other Senate committees with respective 
jurisdiction over their portions of the State transportation 
programs to act quickly in order to facilitate final passage of 
America's Transportation Infrastructure Act.
    Thank you for convening today's hearing. I look forward to 
your questions.
    [The prepared statement of Mr. McGough follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thanks very much for your helpful 
testimony.
    I would like to turn to Mr. Doug Holtz-Eakin.

                STATEMENT OF DOUG HOLTZ-EAKIN, 
                PRESIDENT, AMERICAN ACTION FORUM

    Mr. Holtz-Eakin. Chairman Barrasso, Ranking Member Carper, 
and members of the Committee, Thank you for the chance to be 
here today to talk about the role of infrastructure in the 
recovery from the pandemic recession.
    With a minor correction to the Ranking Member, this is a 
downturn that is unprecedented in modern history. In the past 2 
months, we have seen a record fall in consumer confidence; we 
have seen a record 1 month decline in retail sales; we saw a 
week in which 6 million Americans filed claims for unemployment 
insurance, 10 times larger than any previous week in history.
    In April, we saw 20 million Americans lose their jobs; 
again, 10 times larger than any single 1 month job loss, the 
previous one being the demobilization from World War II. We saw 
the unemployment rate jump over 10 percentage points; again, 10 
times larger than any previous 1 month increase in 
unemployment.
    And the Congressional Budget Office forecasts that during 
the second quarter of 2020, the size of the U.S. economy will 
shrink by 11 percent. In the worst year of the Great 
Depression, 1932, the economy shrunk by 12 percent. We are 
going to experience a comparable decline this spring.
    So this is an unprecedented, both in its source and its 
depth and speed, economic downturn in the United States, and 
properly, a lot of policy response has been focused on staving 
off further decline and reversing it.
    The Federal Reserve has moved quite aggressively to provide 
liquidity and additional lending facilities for the private 
sector. Congress has moved with remarkable speed, and I think, 
a tremendous scale to address this crisis with Families First 
and CARES and the paycheck protection increase efforts. You are 
to be complimented and congratulated for those efforts. I think 
they are exactly what the doctor ordered.
    But they are not everything that we are going to need. 
There is a part of this recovery that Mr. McGough just pointed 
out that is actually quite important. The Congressional Budget 
Office points to a very slow return to the levels of economic 
activity that we had in January of this year. And in their 
projection, unemployment remains quite elevated, over 8 percent 
at the end of 2021.
    So there is a place in the response to this pandemic for 
durable, long term investments that can address that challenge 
past 2020, past 2021, and infrastructure is exactly right for 
that.
    This bill that the Committee had passed last July is ideal 
in three ways. First of all, it is clearly better than a 
failure to reauthorize, or a choppy month to month funding 
approach, which would be a headwind to a recovery that is 
already going to be difficult enough.
    Second, it addresses the supply side of the economy, the 
capacity to deliver goods and services through the supply chain 
quickly and efficiently. I think it is just realism to expect 
that the virus will be around for a while. We will continue to 
face supply disruptions, whether they be regional lockdowns, or 
the ongoing need to reconfigure our economy to work in the 
presence of the virus.
    Businesses are going to physically change a lot of their 
workplaces. There will have to be PPE, there will have to be 
testing, there will have to be a whole variety of 
reorganizations that will cost money, make goods and services 
more expensive, and inhibit the delivery of those in the 
economy.
    To the extent we can have policies which target the supply 
side and provide cost reductions and efficiencies that allow 
the economy to operate more effectively in the presence of 
those necessary adjustments to the virus that will have durable 
and very lasting impacts. I think those are an important part 
of thinking about policy going forward.
    These are the kinds of investments that I think will be 
done well. There is a sad history of taking what would be an 
otherwise sensible transportation or other infrastructure 
project and trying to front load it, rush it, call it stimulus, 
and in the end, undercut the basic objectives of the programs. 
That is not going on here.
    You are using programs that have been effective, are well 
understood, the money will be distributed at the appropriate 
pace. I applaud you working on the red tape to have the 
projects happen faster.
    But they will come online at times the economy needs it in 
the years to come, and that is something that we need to also 
have in addition to the other dramatic efforts.
    Thank you for the chance to be here today, and I look 
forward to the chance to answer your questions.
    [The prepared statement of Mr. Holtz-Eakin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thanks so much for your testimony and 
being with us today.
    Also joining us remotely is Mayor Greg Fischer from 
Louisville, Kentucky, incoming President of the U.S. Conference 
of Mayors.
    Mr. Mayor, we appreciate your doing this. I know you 
committed to be here prior to the tragedy that is affecting the 
country right now. I know you have lots going on. We appreciate 
your being here, and we are looking forward to hearing from you 
now.

 STATEMENT OF HON. GREG FISCHER, MAYOR, LOUISVILLE, KENTUCKY, 
       AND INCOMING PRESIDENT, U.S. CONFERENCE OF MAYORS

    Mr. Fischer. Thank you Chairman Barrasso and Ranking Member 
Carper and members of the Committee.
    There is no doubt that it is busy times in America's cities 
right now, we have much to do. I really appreciate the 
opportunity to participate in this hearing remotely, so thank 
you for the flexibility.
    I am Greg Fischer, the Mayor of Louisville, and Vice 
President of the United States Conference of Mayors, as you 
noted.
    I commend you all for holding this timely examination of 
how infrastructure investment can help get our country back on 
the road to recovery.
    Before I talk about that topic that has brought us here 
today though, I would like to acknowledge the crises that 
Louisville and cities all across our country right now are 
currently facing. That is the COVID-19 pandemic, which we 
thought was a big enough challenge, and now we have challenge 
in our streets of America protesting so many things, but first 
and foremost among them the effects of systemic racism.
    My community is mourning the death of two residents who 
died in interactions with law enforcement, Breonna Taylor, and 
David McAtee. We join Americans nationwide in mourning the 
deaths of George Floyd, Ahmaud Arbery, and just way, way too 
many others.
    Systemic racism haunts and hinders our progress as a 
Nation. We have to learn to work together at all levels of 
government to address the concerns of our African American 
communities and implement real policy reforms to ensure 
justice, opportunity, and equitable outcomes for every 
American, regardless of their skin color.
    Infrastructure plays a really big role in addressing some 
of those challenges locally. With your support, Mayors can 
promote equitable economic growth through infrastructure 
investment.
    So let's talk about the impact of the coronavirus on 
cities. The Conference of Mayors has been doing everything we 
can to support our communities throughout the pandemic. We 
struggle to understand how and when we will fully recover, 
because of the depth of the economic challenge. We want to 
thank you and your colleagues for passing the CARES Act and 
taking other actions to help us at the local level.
    Yet despite these significant actions, unfortunately, more 
needs to be done, including providing fiscal relief for cities, 
counties, and State governments, more relief that can be used 
more broadly to support the fall off in our general revenues.
    Congress must provide flexibility for cities like 
Louisville to use our allocations from the coronavirus relief 
fund to address our revenue losses. Local governments need 
additional funding to support our ongoing response after 
December 30th, 2020.
    We are working to finalize budget recommendations for the 
new fiscal years that begin for most cities on July 1st, so we 
need action and resolution from Congress as soon as we possibly 
can get it.
    National recovery must focus on metro areas. Our metro 
regions are the engines of the U.S. economic growth, accounting 
for 91 percent of gross domestic product and wages. 
Unemployment rates were higher in April in all 389 metropolitan 
areas, according to data released by the BLS yesterday. Another 
1.9 billion Americans filed unemployment claims last week, and 
the national unemployment rate may exceed 20 percent. If our 
economic output does not get back on track, obviously our 
Nation will be in trouble.
    As a logistics hub, Louisville can attest that 
infrastructure investment creates jobs. UPS employs more than 
20,000 full time local workers here in Louisville. Our local 
infrastructure supporting UPS's Worldport has attracted 
hundreds of other businesses across multiple industries. So we 
ask that you look at ways to increase your funding commitments 
to local jurisdictions.
    Cities will not be able to lead, as we previously have, in 
drawing our share of revenue commitments to infrastructure, 
including highways to support the movement of goods. Mayors 
must have more say to ensure that Federal investment fulfills 
our community needs.
    In my fuller testimony to you all, I talked about our 
Reimagining Ninth Street Project. The complete street's 
redesign of the corridor will help our city to heal the 
physical, racial, and social divide between west Louisville, 
our lower income area of the city, and our downtown and 
neighborhoods to the east.
    Our requested Federal grants will help grow economic 
activity in the very places that need it most, like our 
opportunity zones. We will improve quality of life and safety 
outcomes for all facility users.
    The plan also includes dedicated transit lanes for our Bus 
Rapid Transit system. Our partners at TARC, that is our transit 
authority, provide transit service to 40,000 riders daily, and 
80 percent of those trips are employees and students.
    Transit is important to our economic and work force 
development. Our residents and essential workers need access to 
jobs, education, commerce, healthcare services, and clean air, 
no matter what zip code they are in.
    I would like to convey our support for the Committee's 
efforts to address climate resiliency, reduce carbon emissions, 
and fund alternative fuel structures. I appreciate the sub-
allocation of funds to local areas to support our emissions 
reduction strategies.
    Local government needs your help to harden our 
infrastructure systems to withstand natural disasters and 
extreme weather events, like the flooding we have experienced 
locally here from the Ohio River.
    Cities, counties, and towns own and manage about every 4 
out of every 5 miles of highways and streets, managed, again, 
by cities, counties, and towns. So we would welcome your 
commitments to support our needs in this area.
    In closing, Mr. Chairman, Ranking Member, and Committee 
members, we support your efforts to advance legislation to 
renew the Nation's surface transportation law. Infrastructure 
investment can facilitate the job growth and economic recovery 
we desperately need. We encourage you to direct Federal 
resources to our Nation's metro areas.
    On behalf of the Conference of Mayors, I would like to 
express our appreciation for the opportunity to join you this 
morning and share our views. I would be pleased to answer any 
questions that you have.
    [The prepared statement of Mr. Fischer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you so very much, Mayor 
Fischer, for taking the time to be with us today. I know you 
will have a number of questions from the members. We appreciate 
all of your comments.
    We will start with 5 minute rounds of questions.
    I want to start with Mr. McGough if I could. In your 
written testimony, you commended this Committee for developing 
the American Transportation Infrastructure Act with unanimous, 
bipartisan support. The House Democrats have just released a 
bill that was purely partisan, did not involve the Republicans 
at all in the efforts.
    I just want to ask, how important it is that surface 
transportation legislation advances in a bipartisan fashion, as 
our Committee has done?
    Mr. McGough. Well, Mr. Chairman, transportation is one of 
the few areas that consistently receives strong support from 
both sides of the aisle. Surface transportation bills in the 
past have historically, when you add the votes up, have been 
bipartisan in nature.
    The House, the Senate, the White House, have all expressed 
interest in moving an infrastructure bill forward this year, 
but we have less than 120 days. We need an outcome, so we need 
movement. That is going to take true bipartisan support in both 
the Senate and the House to move this forward.
    Senator Barrasso. Can I ask you, Mr. Holtz-Eakin, because 
you talked about the tens of millions of people who have lost 
their jobs in the country due to the coronavirus. How would 
providing stable, long term funding for highway infrastructure 
projects help improve the economy, help create jobs? Are all 
types of infrastructure projects equal when it comes to the 
long term economic recovery, or is highway spending 
particularly effective?
    Mr. Holtz-Eakin. So, imagine that it is 3 months ago, when 
we are essentially at full employment with record low 
unemployment rates and wages rising across the spectrum and 
especially at the low end. In those circumstances, a well 
designed surface transportation infrastructure program can 
continue to raise the productivity of America's businesses; it 
can continue to increase the efficiencies and allow cost 
reductions for those businesses. That shows up as a higher 
standard of living for America's workers in those 
circumstances. I think those benefits last, probably, a long, 
long time and are a reason to have these programs in place 
continuously.
    In these circumstances, there is the additional benefit of 
providing some opportunities for work where others have 
disappeared. There is little question that even if we are quite 
successful at returning the 18 million individuals who were 
identified as temporarily unemployed in April, suppose we 
miraculously got them all back to work, we are going to have to 
find additional employment opportunities for many people who 
used to be in hospitality and leisure and used to work in some 
of the theatres and casinos and cruise lines that are going to 
be diminished in scope and size over the next couple of years.
    So there are new opportunities for employment; there are 
benefits to the economy. The one that I want to emphasize in 
these circumstances is the impact in offsetting what is going 
to be a more costly way of running America's businesses. To the 
extent we can offset that is a huge help.
    I am cognizant of my experience after the terrorist attacks 
of September 11th, 2001. We realized we had a threat to the 
American public, and we had to address that threat.
    But we also had to operate the economy in the presence of 
that threat, and we didn't fully appreciate that the cost of 
standing up the TSA, the cost of inspecting every container 
that came into the United States, the cost of armoring every 
headquarter against invasions, was going to take productive 
capital away from other tasks.
    If you think back to that period, we tried conventional 
stimulus multiple times, 2002, 2003, 2005, 2008, to no great 
effect, because we weren't addressing the problem. What I like 
the most about this hearing and about this bipartisan bill is 
that it is targeted right on what will be the problem, and I 
think that is a big change from what we did back then.
    Senator Barrasso. Thank you.
    Mr. McGough, you mentioned in your testimony that 
infrastructure is in dire need of repair. You urged Congress to 
make strategic investments in infrastructure to spur meaningful 
economic growth. So I want to talk a little bit about just the 
difference between the amount of money we put into, say, 
highways and bridges compared to the money we put into transit 
in terms of what we need to do.
    The U.S. Department of Transportation estimates that the 
investment backlog for highways and bridges is about eight 
times higher than it is for transit, in terms of the backlog 
right now. The last two major highway authorizations--Senator 
Inhofe was so involved in the last one, well, he was involved 
in all of them--have provided over 80 percent of the funds 
authorized from the Highway Trust Fund go toward highways and 
bridges.
    So do you support maintaining this traditional highways-
transit split in our next authorization, about 80 percent 
highways and bridges, 20 percent transit?
    Mr. McGough. Mr. Chairman, ARTBA supports maintaining the 
traditional split that we have seen between highway and transit 
spending. The solution is to increase both highway and transit 
investment, and not suggest that one is a bigger priority than 
the other.
    Senator Barrasso. At a point in you testimony, you talked 
about my home State of Wyoming, the $300 million in Federal 
Highway Funds, the hundreds of construction projects, 
significant, sensible investments in highway and bridge 
infrastructures like we have just described. It helps Wyoming. 
It benefits States because every State has programs to this 
effect.
    How important to the construction industry is stable, long 
term funding for surface transportation infrastructure 
projects?
    Mr. McGough. It really boils down to certainty. Like any 
business, the difference between a short term or long term bill 
is the same for our businesses. If you look out and you don't 
know where your funding is coming from next year, you make 
business decisions based on that. You make business decisions 
whether that is to purchase software, to buy equipment, expand 
your facilities.
    The same thing goes with State DOTs. They have no certainty 
of the funds, and short term planning really leads to short 
term decisions. The whole key for successful economic growth is 
a multi-year bill that gives the States, gives the contractors 
the ability to plan and know what to expect.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Mr. Chairman, I would just observe from the 
responses to those first questions that you have asked, that 
this is an exceptional panel, and we are delighted, seriously, 
and we are blessed with a lot of great witnesses. But today, I 
think these witnesses are just more than punching well above 
their weight, and we are glad that you made time for us, 
especially.
    I am going to start off with a question I have for Mayor 
Fischer.
    He leads a major city not far from where my sister and her 
family live in Winchester, Kentucky, and not far from where my 
mother lived the last 3 years of her life and just had received 
the best care in the world. So I have a special warm spot in my 
heart for Kentucky and the people of Kentucky.
    I would ask my first question of Mayor Fischer, and that 
is, as we think about making Federal investments in our 
communities that can assist with economic recovery and bring 
equity and equality, how can we ensure that Federal investments 
provide access and opportunity to all individuals, no matter 
what neighborhood they live in, no matter what their zip code 
is? Could you just give us some thoughts on that, please?
    Mr. Fischer. Yes, thank you, Ranking Member. I think this 
is a tremendous opportunity to show the power of the citizens' 
money at work as we dedicate and increase allocations 
responsible for minority business participation in these 
contracts. A lot of the infrastructure development in our city 
would take place in and around communities in need. Many of 
them are opportunity zones, as well.
    I would just like to echo the prior comments on the 
consistency that we could have this around funding year after 
year would allow the creation of more minority owned businesses 
as well, and give them the type of certainty that they could 
move forward, that they could employ local work force as well. 
These are good jobs in infrastructure, and we have ample 
opportunity for the work in our city, whereas we have $300 
million of maintenance that is required just on our sidewalks 
and roads alone, while our local government is becoming 
increasingly strapped for other needs.
    So there is no question there can be an equity overlay on 
this. Our city government uses a racial equity lens with all of 
our investments. It has been systemized to what we do. So it 
would be a tremendous opportunity to lift up our communities in 
need.
    Senator Carper. Thank you for that response.
    Sometimes we focus too much, here on Capitol Hill, on where 
we disagree. I like to focus on where we agree. One of the 
biggest issues, and several of you have already commented on 
this, is how do we pay for this stuff that we are talking 
about? How do we pay for our roads, highways, bridges, and 
transit systems?
    Here are a couple of areas where I think that Democrats, 
Republicans, and folks on this Committee led by our Chairman 
agree, we agree that things that are worth having are worth 
paying for, not just putting on the Nation's credit card and 
continue to add to our debt as if it does not matter.
    We agree that those who use our roads, highways, bridges, 
and our transit centers have an obligation to help pay for 
them. We agree that there is no silver bullet when it comes to 
paying for transportation infrastructure, but there are a lot 
of silver BBs, and some of them are bigger than others.
    And we agree that the source of funding must be 
predictable, and it must be sustainable. It cannot be stop and 
go. The last thing that folks need when they are building 
roads, highways, bridges, and transit systems is wondering 
whether or not the money is going to be there the next week, 
the next month, or the next year.
    With that in mind, let me just ask of each of you, and we 
will start with, it is Mr. McGough?
    Mr. McGough. That is correct.
    Senator Carper. Has anyone ever mispronounced your name, 
Mr. McGough?
    Mr. McGough. Maybe a thousand times.
    Senator Carper. Today?
    Mr. McGough. Not today.
    [Laughter.]
    Senator Carper. Well, my question of you, Mr. McGough--we 
will get it right--what advice would you have, we will start 
off with you, what advice do you have to give us, my colleagues 
and me here on the dais, our staffs, about the importance of 
paying for infrastructure, maybe give us some advice on 
convincing some reluctant members around the country on the 
need to pay for that transportation infrastructure, and how to 
structure some existing fees and some new fees in order to 
avoid both a negative impact on our economy, and to be 
sustainable, even after we transition away from motor fuels 
over the next decade?
    Mr. McGough. Thank you, Senator Carper. ARTBA has long 
supported a motor fuels tax increase as the most effective, 
transparent, and equitable way to pay for surface 
transportation infrastructure improvements. As you mentioned, 
Senator, there is no silver bullet to a complex problem.
    That is why ARTBA has been steadfast and consistent in 
supporting any and all highway user fee proposals since the 
Highway Trust Fund revenue crisis began 12 years ago. I will 
tell you, it is going to take a unique combination of a number 
of things, and we agree wholeheartedly the users of the system 
should be paying, and for anything that's worthwhile, will cost 
us the dollars to do that.
    Senator Carper. Thank you.
    Doug.
    Mr. Holtz-Eakin. I think, looking forward, and I have 
written on this, and we have had this conversation, that motor 
fuels taxes are not the appropriate base anymore, and that it 
makes sense to move toward something like a vehicle miles tax 
with adjustments for weight and axles, which cause the damage 
to roads and bridges. That is the endpoint; you want to end up 
there at some point in the future, when it is feasible.
    Then working back, you could legislate that now and 
implement it over time, so that the Highway Trust Fund becomes 
sustainable.
    But I don't think you should raise taxes in 2020, and I am 
not even sure about 2021. This is not the right time to sort of 
provide additional headwinds to the economy. So have the 
conversation, get it financed in a durable and sustainable way. 
I think that VMT is the future, but I don't think you should do 
that this year.
    Senator Carper. Yes. I would like to say that vehicle miles 
traveled is the future. We need a bridge to the future; in 
fact, we need a couple bridges to the future, and so, thank you 
for that.
    Mayor, your thoughts please, and then my time is expired.
    Mr. Fischer. Yes, thank you so much. Mayors are agnostic as 
to where the funding comes from, but it has to come from 
somewhere.
    I think part of this, too, is kind of a culture shift that 
we need to have in our country where citizens are proud of 
their infrastructure. We have the Ohio River Bridges Project 
here, which is a $2.5 billion project completed about 5 years 
ago, paid with tolls, so user fees.
    But in America, it costs, the great American dream. We want 
everything, but we don't want to pay for anything, and we all 
know it doesn't work that way. So we have to get back to a time 
when we looked at our city buildings and our infrastructure, 
and whatever we invest in as a public, and say that makes me 
feel good, just like having public health properly funded as 
well.
    As we talk about the money, let's talk about the 
collective, too, about we are proud as Americans, as 
Louisvilleians, and these are the kind of things we funded 
together.
    We also have to look to the future, obviously, with more 
and more electric vehicles. So as was noted, how do we figure 
out how to tax vehicle miles traveled, local occupational taxes 
directed to our transit authorities as well.
    And a gas tax is part of that, I believe. So it is a 
portfolio of diversification with an umbrella of pride around 
it, how about that, that Americans say, when we invest in 
things that help us all, that is something that is required for 
a strong America, and I am happy to be an investor in that.
    Senator Carper. I like that, umbrella of pride.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I am going to get into another subject here, and I would 
like to address this to Mr. McGough.
    First of all, the FCC has just done the Ligado order, which 
would allow, it says, Ligado to repurpose the spectrum around 
GPS.
    This would have a devastating effect on military. I chair 
the Senate Armed Services Committee, so I was naturally, that 
is where my concern was. In fact, there is one general that 
said this would pose ``the most significant non-combat threat 
to our national security of my lifetime.'' That is what a big 
deal it is.
    We had a great hearing; people understood it; it was well 
articulated. But it also affects everybody else, all of 
America.
    We had, I think, we were allowed 30 days to file a motion 
for a reconsideration for a petition for a reconsideration of 
this thing, and there are eight petitions representing some 22 
organizations.
    One of those was ARTBA. You filed this petition with the 
American Farm Bureau, and the Association of Equipment 
Manufacturers. So what I would like to ask you is, can you 
speak to the impact this order would have on your members and 
on the construction industry?
    Mr. McGough. Thank you, Senator.
    The transportation construction industry is using more new, 
innovative equipment on job sites from tasks like surveying to 
utilities, grading control, enhanced material applications. 
This equipment uses GPS.
    The Ligado proposal network shows significant interference 
with GPS and other signals, likely. Interference would be 
disruptive on job sites and can jeopardize safety and will most 
surely cause project delays.
    Currently, there are over 900 million GPS receivers 
nationwide. Ninety-nine percent of those are operated by the 
private sector, none of which will be compensated under this 
order.
    Even more concerning, if you look at the job site level, 
when you do have interference, the FCC order is to direct you 
to a 1-800 number. It seems illogical that you would have 
construction workers not realizing where their interference is 
coming from, and that that would not cause project delays as 
far as getting to a time of resolution.
    We would urge the FCC to revisit their orders and the 
impacts that the Ligado order would have on everyday users that 
depend on a reliable GPS system.
    Senator Inhofe. I appreciate that, and during this hearing, 
I did take the time to look up and find that there is, that 
Ligado has actually spent well in excess of a million dollars 
on lobbyists. So they are busy out there working. Someone is 
concerned about the amount of money that is going to be 
involved in this thing.
    The second thing, what I mentioned to Mr. McGough, is as 
the Chairman said, I chaired this Committee for quite a while. 
This is the one area, you know, people in Washington, every 
time they want to spend money, they call it an investment.
    In this case, it actually is an investment. It has an 
effect on everything else that comes up, and we see the return 
on this investment when companies locate new facilities and 
community.
    We have experienced that in my State of Oklahoma. So I 
would like to have you kind of elaborate a little bit about 
what kind of return we would get on this investment.
    Mr. McGough. Well, Senator Inhofe, as repairs and upgrades 
are made to the highway, street, and bridge networks, drivers, 
businesses, shippers, transit riders, will all save time and 
money. These users benefit as a result of decreased congestion, 
less money spent on vehicle repair, and safer roads.
    A study commissioned by the U.S. Treasury Department found 
that for every dollar in capital spent on select projects, the 
net economic benefit ranged from $3.50 to $7.00. The trucking 
sector estimates $74 billion is added to the cost of goods due 
to congestion on our roads. So we are spending the money 
without the economic benefit. We just don't see it because it 
is buried in the cost of our goods and services.
    Senator Inhofe. I want to also say, and I will say to both 
of my good friends, the Chairman, and the Vice-Chairman, that 
this is an area where it is popular. It is about the only tax 
you can find that is popular.
    I can remember several of our good friends, without 
mentioning names, who were a few years ago running for 
Governor, and we are talking about spending and all that. They 
made the mistake of talking about infrastructure, and 
immediately, they were jumped on. So there is a very strong 
positive effect that we have when we talk about how we are 
going to be doing funding; yes, that's going to be a problem.
    I appreciate one of the statements that you made about this 
is not the time that that can be done, but the fact that it 
eventually is going to have to be done. So I appreciate it very 
much, and this Committee.
    I get more comments on this bill, I would say to the 
Chairman, than anything else that when I go back to Oklahoma. 
Good.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman, and let me 
thank all of our witnesses.
    It is a good follow up to Senator Inhofe that the two of us 
are in total agreement. Infrastructure does bring us together. 
It is a critically important area for us to make advancements. 
Our Committee has always worked in a very bipartisan manner.
    Now that we recognize that over the last several decades, 
we have seen a decline in the percentage of our economy that 
has been devoted to infrastructure spending, we need to do 
smart investments coming out of COVID-19. I particularly 
appreciate the comment by Doug in regards to how we pay for it 
now.
    I am for paying for it. But coming out of this COVID-19, we 
are looking for how we can create jobs. We recognize that. We 
have put trillions of dollars into the economy because we know 
the impact COVID-19 has had in our economy.
    Now, we need to look at how we can create the jobs that 
have been lost from COVID-19. Investing in infrastructure gives 
us that opportunity to create good jobs.
    But at the end of the day, as Senator Inhofe has pointed 
out, we also have an economy that can perform better for the 
people in our community, as well as give us a greater economic 
competitiveness. At the end of the day, we end up with a 
product that helps our constituents and helps our economy.
    I am a strong proponent of looking at a robust 
infrastructure package, and our Committee has already passed a 
bill on this, in order to come out of COVID-19 with a stronger 
economy.
    My question is to Mayor Fischer. As we look at putting 
together an infrastructure package, every community is 
different. I was proud to work in a bipartisan way to create 
the TAP Program, the Transportation Alternative Program, which 
gives additional funding at the discretion of local governments 
for what is best in their community.
    In my State of Maryland, we need to have a balanced 
approach on infrastructure. Transit is critically important to 
the people of the Baltimore-Washington region, so we want to 
invest in transit. We want to invest in neighborhood 
improvement type projects. We don't want to see one size fits 
all at the national level.
    As a Mayor, can you tell me how important is it for you to 
have discretion as to how transportation programs are handled 
in your community, and having the ability to have the Federal 
Government as a partner in developing those types of 
transportation programs?
    Mr. Fischer. I appreciate the question, Senator. Obviously, 
I think the best government is the government that is closest 
to the people. We have long term plans in terms of Move 
Louisville that create a vision for what is possible a decade 
out, but then we have near term plans for what it is that we 
are trying to do today.
    To give you some perspective on the challenge, Louisville 
represents about 33 percent of our State's GDP, but we get 3 
percent of the funding for transit and for roads. There is this 
huge disconnect in terms of where the economy is being created 
and where the money is flowing toward that.
    So the more that we can tie that into our local 
transportation planning, tie that into our arterials that feed 
into our highway system, to our complete streets where people 
sit outside and enjoy our great restaurants here in Louisville, 
it is that type of systemic approach toward transportation and 
public transit on top of that, and sidewalks on top of that, as 
pedestrian as that sounds, pun intended.
    That is really important to create a great city, and the 
feel for a city where traffic is moving as seamlessly as 
possible, reducing congestion, and making sure our air quality 
is as good as it can be.
    Senator Cardin. Well, I thank you for that. In working with 
Senator Inhofe and now with Senator Capito on the Subcommittee 
on Infrastructure, we have recognized our States are different, 
so we try to give flexibility so that it can work in all parts 
of our country.
    It is one of the reasons why we had a unanimous vote in our 
Committee, and I hope as we move forward, yes, it is important 
to invest today in infrastructure. We may not pay for it 
completely, but that is to get our economy back on track.
    This is a good investment, like we have done already in the 
CARES Act. Let us look in a smart way to give the flexibility 
to the States and local governments to do what is best for 
their community.
    Again, I thank you for you testimony. I thank all of our 
witnesses for their testimony.
    I can just underscore what Senator Inhofe said, we are 
going to work bipartisan to get a strong infrastructure package 
moving in this Congress.
    Senator Carper. Mr. Chairman, could you yield to me for 
just 10 seconds?
    Senator Barrasso. Yes, Senator Carper.
    Senator Carper. I am reminded, as I am listening to what 
Ben was saying, unfortunately, everybody says we need to invest 
in transportation infrastructure. Almost never do I hear 
anybody say this is the time to do it. It is always over the 
horizon or around the corner.
    We have used in recent weeks and months the term turning on 
the economy, the light switch versus the dimmer switch. I think 
with respect to funding, I agree, 2020, I don't think is the 
right time to raise taxes or fees. But I think we should start 
turning up the dimmer switch in 2021 in a variety of ways. 
Because it is always around the corner, it is always over the 
horizon.
    Next year, I think we might be able to turn on the dimmer 
switch, provide some of the revenues that are needed, and just 
send a signal that we are not going to walk away from this and 
simply put it on our Nation's credit card.
    Thank you.
    Senator Barrasso. Thank you.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman, and thank you all 
for being here today, and I join my voice in the chorus of 
being very excited about the infrastructure package.
    Senator Cardin and I worked this through our Subcommittee. 
We built a lot of sustainability of materials and everything 
into this to hopefully build a longer life.
    I wanted to ask the Mayor a question quickly on the 
flexibility that you are asking for. Because this is an issue 
that Senator Sullivan has a bill that I am on asking for the 
dollars that have gone to the smaller States to be able to have 
the Governor use the flexibility for city, county, and State 
lost tax revenue.
    Our State has a gas tax, and I would include that in the 
package of lost tax revenues that would be important to a 
Governor. Do you have a thought on this in terms of what you 
see in Kentucky or in Louisville?
    Mr. Fischer. Yes. Our gas tax has been a declining source 
of revenue for our State for quite some time. As a result of 
that, we get less and less every year as well.
    But I would definitely have this total bucket of all the 
funds that are available so that we can look at that as a 
system and allocate those to the places where we have the most 
vehicle miles being traveled, where the greatest economic 
impact is coming from, as well. We have to take care of our 
rural brothers and sisters as well. But the dynamism of the 
economy is in the cities, certainly here in Louisville, and 
Kentucky, and throughout the rest of the country as well.
    The more that we can look at it as a system and not 
Balkanized into these different funds, I think that is the way 
that we maximize the funding.
    Senator Capito. Well, like our State of West Virginia is 
down 27 percent in their gas tax.
    I will say also to the credit of our State, we passed a 
State referendum 2 years ago that actually raised our gas tax, 
and actually said, this is important to us as citizens to have 
our potholes filled and new construction and all the things 
that in a mountainous State and a rural State are sometimes 
very difficult to maintain.
    Mr. McGough, I wanted to ask you about bridges, because 
this is my State also where 21 percent of our bridges are 
deficient.
    So when we were writing this highway bill that we have all 
talked about today, one of the set asides that I worked really 
hard in and wanted to make sure we were able to include is the 
$6 billion set aside that actually dedicates to bridge repair.
    We have seen a lot, some large bridges across the country 
collapse to calamitous endings, but we also know in all of our 
areas, we have bridges that can't be used for school buses, 
can't be used for heavier trucks, and are a danger, really, in 
the communities. My State is one of these.
    You highlight that in some of your comments. But when we 
ask CRS to report on this, I don't know if you are aware of 
this, they said that we are actually making better progress in 
our bridge repair than maybe the ARTBA had assessed in their 
report. Are you aware of that discrepancy in those two reports?
    Mr. McGough. I am not aware of the discrepancy. I am aware 
that we are gaining ground on fixing our bridges as far as the 
percent deficient. But when you look at that, the number of 
years, decades that it would take to fix our bridges, that is 
the real challenge.
    The dollars still need to be coming in to be able to fix 
the ones that are deficient. So while it may look better year 
to year, the real challenge is, how many years is it really 
going to take, in your case, in your State, to fix those 
deficient bridges.
    Senator Capito. Right, and that is why I absolutely 
insisted that we include this in the package, because it is 
important not just in my State, but also a lot of other States.
    Just on the issue of construction companies now, I know a 
lot of them have gotten PPP loans, a lot of them, some of them 
are, it seems like, when you are on the highway, there is a lot 
of construction. But I am sure it is a lot less than it was.
    What are you seeing in terms of safety of your workers? 
What are you seeing in terms of confidence of rebuild?
    Mr. Holtz-Eakin, I don't know if you have a comment on 
where you see this construction industry could help pull us out 
of where we are right now. I think, it would be an important 
part. And then we will get to health of workers.
    Mr. Holtz-Eakin. I guess what I would emphasize is that the 
supply chain is a really important part of the economy, and 
keeping it going in the face of the virus is actually a 
priority. It is one of the things we manage to do pretty well.
    But that does say that if you have truck drivers, rail 
personnel, cargo pilots, and the attending crews, they should 
be a top priority for PPE and the ability to continue to 
operate as we go forward.
    The virus isn't gone; we are going to have to, at least 
over a sustained period, protect them during the course of 
their job. That is not to diminish the first responders and the 
health front line workers, but people forget about the sort of 
economics of that supply chain sometimes, and it is very 
important.
    Senator Capito. Right. We actually had a hearing in 
Commerce yesterday that this point was really hit hard on, 
particularly in areas that might be forgotten like rail or 
other arenas.
    Mr. Holtz-Eakin. The rail folks have been forgotten. It is 
important. They move a lot of cargo.
    Senator Capito. Right.
    Well, I think my time is over.
    Thank you.
    Senator Barrasso. Thanks so very much.
    Senator Whitehouse would be next; he has been in the room, 
and I know he has been following it. But I think right now, he 
may have had to step away, which would turn us to Senator 
Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, Ranking 
Member. Thank you for holding this hearing today. I am really 
grateful that we have this chance.
    It should go without saying that the impacts of COVID-19 on 
New York have been massive and are felt in every part of our 
economy, including our transportation systems. Our transit 
agencies across the State are experiencing staggering losses in 
revenue due to sharp decreases in ridership. That is true in 
New York City and in smaller cities across the State.
    They all need our help. Public transit is an absolute 
lifeline for New Yorkers. The MTA has experienced a decrease in 
ridership of more than 90 percent during this pandemic.
    This decrease is not because people in New York all of a 
sudden no longer want or need public transit. It is because 
people need to stay at home in order to stay safe.
    But despite the decreased ridership, it remains absolutely 
essential that our subways, buses, and rail continue to operate 
so that healthcare workers can get to the hospitals to take 
care of sick people, and so people can continue to get their 
groceries and make other essential trips.
    For so many of our citizens, particularly our lowest income 
community members and communities of color, those are the ones 
who are hit hardest by COVID-19. Public transit is not simply a 
choice; it is actually a necessity.
    Continuing to provide Federal funding to replace the lost 
fare revenue so that our public transit system doesn't shut 
down is also essential. Once this crisis has passed, as it 
will, riders will come back. We have to ensure that transit 
agencies have the resources necessary to ensure those riders 
are safe.
    Limiting transit options and relying on more vehicle 
traffic in a densely populated city like New York is not the 
answer. It will leave those who can afford to drive in gridlock 
and congestion, and those who can't, stranded.
    The people left stranded will include seniors, people with 
disabilities, our veteran community, and many of the workers 
who have proved to be so essential during this pandemic.
    I am not going to allow that to happen. So while I 
appreciate the opportunity to hold this hearing today to talk 
about the role of infrastructure in our recovery, we need 
action by the Senate as well. We need to listen to our States 
and our cities that need our help, and they need that help 
right now.
    Infrastructure legislation in the Senate is almost always 
bipartisan, but a highway-only recovery bill would not be a 
bipartisan approach to address the true needs of this 
unprecedented crisis.
    Mayor Fischer, my question for you is, what do we need to 
be doing to make sure that our public transit agencies are able 
to safely and reliably operate during this pandemic?
    Mr. Fischer. Thank you, Senator.
    There are a multitude of challenges there in our city. You 
have the whole need for social distancing when you are on our 
transit system as well.
    So our transit system, the local government funds it at 
about $10 million a year. It runs a structural deficit. As you 
all well know, the Federal Government provides most of the 
local funding, so it is most of the funding.
    It is a question of, how do we operate in this new 
environment. Some people are now suggesting that people need to 
commute more in single cars to stop the spread of the virus.
    So we are in this tremendously dynamic world right now, 
where people really aren't sure what the answers are. 
Oftentimes, they are polar opposites of each other when they 
are given.
    Within those constraints, we are working on our safety 
issues within our transit system as we get our economy back to 
work.
    But if I could, I just want to say one other thing. Around 
America right now, in our downtown areas, most of our 
businesses are boarded up, literally. So while we are focusing 
on the pandemic right now, we have got to get a relief valve 
here so that our streets are calm throughout America, so we can 
open up the economy as well.
    That is just the reality we have in our cities right now 
where the house is burning, more or less. It is much calmer 
here in our city and many cities as well, but I just want to 
really emphasize on top of the coronavirus, this is a real 
issue that we don't understand how much longer is going to be 
going on.
    But we have got to be speaking to our people to say we 
understand, and here is what we are moving forward, when we 
expect our economy to be coming back.
    Senator Gillibrand. Can you talk about some of the benefits 
of having a reliable public transit system on economic 
development and the ability to recover?
    Mr. Fischer. Absolutely. So when we think about the impact 
of the coronavirus, the people who were most impacted were our 
front line workers who, in most instances, could be our African 
Americans, our Latino community, obviously everybody is aware 
of the disproportionate impact of COVID-19. Twenty-three 
percent of our population here is African American; about 31 
percent of the deaths were African American. That is low, too, 
compared to most of our cities.
    The ability to have public transportation to get these 
folks safely to work to a job that pays a living wage, by the 
way, is what should be happening here, is absolutely essential.
    Also part of that is to make sure it is a housing solution 
that oftentimes, most every city in America has a lower income 
area, unfortunately, that oftentimes is not where the jobs are. 
So in our housing strategies, to have affordable housing 
throughout the community so people can get to jobs simpler is 
also an important part of the long term solution.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, sir.
    Senator Barrasso. Thank you.
    Thank you for your comments, I appreciate it.
    Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman and Ranking Member 
Carper, both, and to this outstanding panel.
    I agree with Senator Carper. We have got the A Team in 
front of us, and I appreciate this discussion very much. I 
think it is a timely discussion.
    I have been a strong advocate for including transportation 
infrastructure as part of recovery since the very beginning, 
because it has a number of advantages. Some of you have talked 
about that.
    First of all, it does have the advantage of creating 
immediate stimulus. Although it is not the primary purpose of 
building a transportation infrastructure to create jobs for 
building it, building things stimulates the economy. People 
working stimulates the economy.
    It has the additional advantage the profitability of the 
private sector as its main purpose, the movement of goods and 
services, tourists, products, whether they are manufactured in 
St. Louis and going to California, or tourists going to 
Yellowstone or Delaware, or corn and wheat going from North 
Dakota to feed a hungry world.
    But third, it is our responsibility. It is the 
responsibility of the Federal Government to lead a highway 
transportation bill and other transportation infrastructure. So 
it is the perfect time to do it.
    To that end, that is why I wrote an op-ed at the very 
beginning of the discussion about the recovery promoting this, 
and I am glad we are having this hearing to do exactly that.
    Dr. Holtz-Eakin, I have appreciated your testimony a lot, 
and you referenced a ``patient strategy to bolster the supply 
capacity of the economy over the medium to long term.'' Very 
well said.
    In fact, in North Dakota, when oil was booming and 
everything was high, prices were high, labor was high, concrete 
was high priced, everything to build anything was very high 
priced, but we needed to do it.
    When oil prices went back down, our State had the wisdom 
and the foresight to continue building infrastructure when the 
costs of everything were lower. So when they came back, when 
the prices came back and the boom came back, we were well 
situated. So I think there is a good example there for us to 
follow.
    My question, first of all, for you, Dr. Holtz-Eakin, we are 
really good in this town at kicking things, kicking the can 
down the road, right? Would you just, as an economist, maybe 
share with us some perspective on the difference between, or 
the advantages to a long term, well thought out infrastructure 
bill versus, say, a short term, even a 1 year extension?
    Mr. Holtz-Eakin. Oh, I think there is an enormous 
difference. This has come up already in terms of planning 
horizons. If you only have a short term extension, you are 
going to build things that have some sort of return over the 
short term, but they may not be the best thing over the long 
term. So now you have effectively diverted the funds to an 
unproductive use when you should have built them into a better 
long term plan.
    My frustration with a lot of the proposals that have come 
up over the past couple years on the ``big infrastructure 
bills'' has really been twofold. No. 1, they start by saying 
infrastructure, and pretty soon, everything is infrastructure 
because they want to get in.
    The good thing about this is it is what it is. It is a 
surface transportation reauthorization, and that is a part of 
infrastructure and good.
    The second thing is the short term focus. Again and again 
and again, we can spend a trillion dollars this year, and maybe 
you can. But isn't the better thing to do to take a system that 
identifies high value projects and fund them in a sustained way 
so that they benefit for a long, long time? It is refreshing to 
see that approach.
    Senator Cramer. Mr. McGough, I would think even from a 
construction standpoint, there is some efficiency to Mr. Holtz-
Eakin's point, to a long term plan. Is there not?
    Mr. McGough. There is both the efficiency and the 
productivity from, especially from a long term planning 
standpoint. Even if you think out 5 years, that is long term.
    We need, in the Nation, the ability to rebuild a lot of our 
roads and bridges.
    If you look even at the ARTBA report for your individual 
States, those numbers of new lane miles is only set at 4 
percent across the country. Most of those dollars are for 
reconstruction and repair and things along those lines, or 
additional lane miles within existing right of way. So it is 
very important that we maintain that course and that we put a 
robust bill in front of the full Senate and ultimately, in 
front of the President.
    Senator Cramer. Let me throw a hand grenade into the middle 
of the room.
    Our President is a builder; he is a developer, and he loves 
low interest rates. I have heard him say both publicly and in 
private conversations, we should borrow a couple trillion free 
dollars, by that I mean interest free, to which I tell him, it 
is still debt. We should borrow a couple of trillion dollars 
and do it big.
    Does that make sense, and whether it is a couple trillion 
or half a trillion, does it make sense in this economic time to 
do something like that, Mr. Holtz-Eakin, from your economic 
standpoint?
    Mr. Holtz-Eakin. No, that is not a good way to formulate 
the problem, I don't think. If you are borrowing a trillion 
dollars, you still have budgetary trade offs on where it is 
going to go, and you should put it in its most high value use. 
To just in advance, to decide that that is going to be 
infrastructure, to find somehow, without checking other 
potential investments, is a mistake.
    So I like approaches that have an objective which is a 
highly connected national surface transportation network with 
efficiencies. That is a well formulated problem that I can 
understand funding. Taking a trillion dollars and throwing it 
at everything under the sun is not a well formulated approach.
    Senator Cramer. Thank you.
    Senator Barrasso. Senator Braun.
    Senator Braun. Thank you, Mr. Chairman.
    First of all, I don't think there is any one of us here 
that doesn't believe that infrastructure across the entire 
spectrum of it, Senator Gillibrand is right, in some places you 
need that. In many places, roads, and bridges.
    I come from a recent example of where we made the hard 
decision in Indiana. I was sitting in on the Roads and 
Transportation Committee and Ways and Means, and got into the 
stark reality, when I followed the commissioner of highways out 
the door of the committee room, and I was talking about a road 
I was interested in. He said please, don't bore me with that. 
Tell me how you are going to help pay for it.
    We did some interesting things in Indiana. I was an author 
of a bill that was nowhere in the country. It was a regional 
development authority bill that allowed enterprising local 
governments to put more skin in the game. We teed it up the 
next year, and have got early stages of a road project in 
place.
    I don't know how what we are dealing with now is going to 
impact that. But somehow, we have got to convince people here 
where we borrow money for everything we do, we don't even cover 
maybe 23 percent of our current budget, we are borrowing to 
cover it, so it is no good.
    We got 48 out of 50 stakeholders that were willing to pay 
user fees in Indiana to come testify and say, we want to pay 
more in road taxes. I know that diminishes in effect each year.
    How do we, how do any of you convince the people that use 
the roads to come here and convince us that we need to adjust a 
user fee up that hasn't been changed since 1993?
    Mr. McGough, could you start first, and then I would like 
to go around the horn.
    Mr. McGough. Well, from ARTBA's standpoint, I had mentioned 
it earlier, that we have been consistent in supporting any and 
all highway user fees, and we believe that the users of the 
system should use that. I know through the years that people 
have stepped up and said that they were willing to pay more.
    I mention it just from the road congestions, the safer 
roads, what is costing the truckers, if you look yearly, which 
is ultimately being passed on to you and I in the cost of our 
services.
    I think it is time for Congress and the President, what was 
agreed, what has been said since 2016, and what has been said 
again this year, is to move forward with the bill to fix and 
put in a long term sustainable multi-year bill that we can 
count on as an industry, and it is been shown through the years 
to be bipartisan.
    It is one of the more popular programs if you poll the 
American people. I think that it is time to make some tough 
choices and move forward.
    Senator Braun. Thank you.
    Mr. Holtz-Eakin. I don't have a magic solution to that, but 
I think one of the real hurdles is making sure that there is a 
strong connection, an observable connection between the fee and 
the ultimate service the people get back.
    If they feel they are paying a ``user fee,'' and they don't 
see a highway that is being kept up in good shape and is 
congested, they start to wonder, is this really worth doing, 
and that becomes a problem.
    Then it is just literally a tax; it is not a fee for 
service. So structuring the fees as close to the ground so 
people can see the link between what they pay and what they 
get, which we have done some, I think is a key part of the 
problem right now.
    Senator Braun. Thank you.
    And Mayor, when you answer the question, we have a thing 
called Community Crossings Grant in Indiana where we offered 
county and city governments the ability to get more money from 
the State if they put a little more skin in the game.
    Do you have anything like that available to you, and what 
do you think of that idea to kind of stretch the Federal 
dollars that might come in on any project as well that is a 
separate thing, but a way to maintain and pay for roads, paid 
for primarily by city and county governments?
    Mr. Fischer. Yes, Senator, thank you from my neighbor here, 
just to the north of us.
    No, we do not have a program like that, but anytime you can 
get that type of leverage or match that we totally want to take 
advantage of a situation like that.
    I can just provide an observation of the cities around the 
country and different Mayors. To the previous comment, when 
citizens can say, if I pay this fee, and I am going to see this 
project come to fruition, you see a very high rate of success 
in those projects. I think it is in the neighborhood of two-
thirds, so you are seeing billions and billions, it could be 
trillions of projects that are basically being locally funded 
taking place around the country right now.
    There has been an increase in the local government matching 
of Federal funds in particular. The chart that I provided to 
you all shows that local government's increase in funding has 
gone up 116 percent from the period 2001 to 2015, versus the 
Federal Government's 55 percent. So you are seeing more and 
more activity from local governments in these areas with more 
difficult budget situations, obviously.
    A prime example of what you are talking about here too, 
Senator, is the bridge that connects your State and my State, 
the Ohio River Bridges Project, which is driven by user fees, 
tolls. It has really helped both create jobs, I am a business 
guy, I just happen to be Mayor, but then the movement of 
transit throughout our city and our region as well.
    Last thing, Kentucky does not allow localities to have 
specific referenda on projects. We would love, and we are 
working with our State government, but we would love a Federal 
issue here that says if locals want to vote on local projects, 
let them vote on local projects, and let them pay if they want 
to pay.
    Senator Braun. Thank you.
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here. We do appreciate it very much.
    Mr. Holtz-Eakin, you have had a very distinguished career 
being in economic policy and have been a great help in the past 
through the years.
    I think you made a great statement when you talked about 
shovel-ready projects. That is great; that creates some jobs. 
But the real benefit is the economic activity that comes after 
that if they are worthy.
    President Eisenhower, because of military reasons, built 
the interstate system. As a result of that, we became a leader 
in the sense of being able to move goods and services also. 
That lessened prices to consumers; that is a great thing.
    Now, with globalization, not only are we worried about, 
again, the efficiencies, helping our producers now selling to 
our own population, but also trying to compete with 
globalization.
    Can you talk a little bit about how important it is as we 
try to, and the logistics, how important that is, being able to 
compete with a worldwide economy?
    Mr. Holtz-Eakin. We are in constant competition with 
countries around the world, workers around the world, and we 
have to make sure that our workers have at their disposal the 
best technologies and the most efficient operating 
surroundings. There are some very particular things that come 
again and again, not all of which are solvable in this 
Committee.
    But the connectivity between different modes is an ongoing 
problem in the United States, from ports to trains, and trucks 
to airplanes. And there are some high congestion areas that 
just jump right out on the West Coast.
    Solving those has a big impact on the domestic economy, but 
also a big impact on our competitiveness. Because you spend a 
lot of money internally just getting stuff in and out. So I 
think that is very important.
    There are some things that we know going forward are going 
to be more important. I think we are not going to see 
commercial air travel for leisure purposes be what it used to 
be, but air cargo and the capacity of planes to fly closer 
together, carry greater volumes, an air traffic system that 
looks forward and is better, these are all the kinds of things 
that are core infrastructure for a 21st century when you are 
competing globally.
    Senator Boozman. Yesterday, I was in a hearing in the VA 
Committee, and the Secretary of the VA was there. He was 
telling us that in the last few weeks, they had hired thousands 
of VA employees using the abilities that under this very 
difficult circumstance, where normally that would take a year. 
It is amazing.
    Can all of you talk about, and we will start with you, Mr. 
McGough, about the importance of a 1 or 2 year project, that 
could be a 1 or 2 year project actually being closer to a 
decade project, if we can just reduce some of the--and again, 
doing it in the correct way.
    A great example of that is the bridge that fell down in 
Minneapolis that was done in a year, that project. I don't know 
how long it would have taken if you did it in the conventional 
way.
    How important is that? How would that save us money and 
allow us to get some of these projects done?
    Mr. McGough. Well, what you have in the bill that you 
passed last July when I said common sense reforms, a lot of it 
is codifying the One Federal Decision and getting the lead 
agency when it comes to transportation. We would look to the 
DOT.
    But being able to get reviews down to a 2 year window and 
moving forward, that is where a lot of your challenges come 
with moving projects forward.
    It is the time to get construction started, and as you have 
seen in projects that have been fast tracked for accelerated 
delivery, that those roadblocks get out of the way, and you see 
what happens.
    What we need as a Nation is some of those common sense 
policy reforms, where the average person, if you told them how 
long it would take to get a project up off the ground, they 
find it hard to believe that that is true. We need to shrink 
that timeline; that is where your efficiencies are going to be.
    Mr. Holtz-Eakin. It is enormously important on a project 
basis, obviously. But as a flavor of what is really at stake, 
my organization keeps track of every regulation issued by the 
Federal Government.
    Over the 8 years of the Obama administration, it issued a 
major regulation, something that cost the private sector more 
the $100 million, at an average rate of 1.1 per day for 8 
straight years, at a total cost of $890 billion, for $100 
billion a year.
    The Trump administration's approach to regulatory budgets 
has essentially stopped that in its tracks. There has been a 
modest increase; it was a negative coming into the pandemic. 
That has an enormous difference in economic performance. We saw 
that.
    In this pandemic, the emergency waivers that we have seen 
across the Federal agencies have allowed people to do things 
flexibly and respond quickly. I think that has been just a huge 
success.
    And to the extent you can make the progress you have in 
your bill, or codify things that have been done under emergency 
waivers, I think that would be valuable.
    Senator Boozman. Very good.
    Mr. Mayor, can you do it very quickly, or the Chairman is 
going to yell at me?
    Mr. Fischer. OK, I will be quick. Thank you.
    Great project management cannot be replaced, and obviously 
you want projects streamlined, and we always want safety at the 
forefront of all of these things. As we are doing that, we have 
got to remember that there are equity issues around the 
environment.
    So there has to be an environmental justice issue overlaid 
on all these types of things, so our low income neighbors don't 
feel like, OK, here we go again, we are going to get the short 
end of that stick. The streets are clearly talking to us; that 
is not the right way.
    I just want to make a plug for one more thing: value 
engineering. We took our Ohio River Bridges Project from a $4 
billion budget down to $2.5 billion, and it is a beautiful 
piece of infrastructure. So having the different ways to look 
at projects from gold plated to functional is very important so 
you can maximize all this.
    And then, Senator, there are hundreds of billions of 
dollars of shovel-ready projects available today throughout 
America as well, as we work out untangling our bureaucratic 
messes on the other side, so people can get started on the work 
today.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Boozman.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Thank you and 
the Ranking Member, and the witnesses who are here with us 
today.
    Let me just say at the outset that I was pleased to be part 
of the bipartisan vote in our Committee, in the EPW Committee, 
in support of the Highway Authorization Bill, a 5 year bill. As 
you know, Mr. Chairman, the Senate Banking Committee, on which 
I also serve, has jurisdiction over transit, the Senate 
Commerce Committee has jurisdiction over heavy rail.
    We have not marked up a transit bill in the Senate Banking 
Committee. I would look forward to doing it just as soon as 
possible. So it is hard to compare what is happening in the 
Senate EPW Committee with the House.
    As you know, the House Infrastructure Committee has 
jurisdiction over all of those components, not just highways, 
but also transit and heavy rail.
    I hope we can get moving in the Senate on a bipartisan 
bill, but I would insist before any final vote in the U.S. 
Senate on a highway bill that it be merged with a bipartisan, a 
transit bill; this is a 5 year authorization bill we are 
talking about, and it needs to include transit.
    I just checked, and every infrastructure bill that has 
passed the Senate in recent times has had both roads, but also 
transit, and it needs to stay that way.
    So I hope we can get moving in the Banking Committee and 
the Commerce Committee as fast as the EPW Committee did. I 
commend you for moving quickly on a bipartisan basis on that 
piece. But really, we need all those pieces to come together, 
even in the Senate, just as the House needs to come together on 
all those elements.
    To Mayor Fischer, thank you for acknowledging in your 
opening comments the painful issues that we have to sort out as 
a country with respect to systemic racism that are manifesting 
themselves again and again and again, most recently, with the 
murders that you mentioned. We need to get to the bottom of all 
those issues.
    I do believe this part of making sure we have an economy 
that works for everybody, we need good transportation systems, 
both roads and highways, but importantly, transit systems.
    So, could you talk about the importance to the city of 
Louisville about transit, and whether you agree that as we move 
forward in the Senate on the bill that passed the EPW 
Committee, it is also essential that we move forward on the 
transit reauthorization?
    Mr. Fischer. Thank you, Senator.
    Yes, I just want to reemphasize the cries that we are 
hearing from the streets of America right now, and this is all 
of America, folks, and so we can't just say, we are going back 
to business as usual. If that is the case, this will continue 
and continue and continue with great damage, not just to human 
potential, but to our economy as well.
    So the question is, what are some concrete investments that 
can be made that sends a signal to our communities that have 
been on the short end of the investment stick for a long period 
of time that their lives are going to become better? Public 
transit is one of those ways, because our African American 
communities, our low income communities, disproportionately 
count on using public transportation in our city, which is 
still primarily a car based city.
    So a system that works well, that gets them quickly to 
their job; the average user of public transportation in 
Louisville has a commute that is twice as long. People that 
don't use public transportation, multiple stops, trying to go 
get groceries, taking care of kids, it is a complicating factor 
to their life on top of the burdens that they already have.
    So this is a quick investment that could be made that sends 
a message to people that are suffering that says, I hear you. 
That is the most important thing that people want to hear right 
now, is that we hear what they are saying, and that we are 
providing help.
    So, Senator, for those and all the other reasons that I 
have talked about previously, this investment is critical to be 
part of this bill.
    Senator Van Hollen. Thank you.
    On the financing question, because as we all know, EPW has 
authorization jurisdiction, but we need the money to make all 
this really work.
    A question on financing, Mr. Holtz-Eakin; it is good to 
connect with you again, even virtually, but I am curious. 
During this period of time, we just essentially had emergency 
$2.3 trillion spending to respond to the emergency of COVID-19.
    I think all of us recognize that investing in our 
infrastructure is one of those long term investments that will 
pay dividends to our country. Interest rates are low. I have 
supported a whole variety of financing mechanisms. But I am 
interested at this point in time whether you think deficit 
financing infrastructure makes sense for our economy.
    Mr. Holtz-Eakin. As I said in my opening remarks, I think 
there is a place for this kind of an infrastructure investment 
in the recovery strategy. The emphasis thus far has been on 
front loading things, checks, unemployment insurance; that has 
been highly effective.
    Believe it or not, disposable personal income in April went 
up $2.1 trillion at an annual rate. That is stunning, and it is 
because of the CARES Act and the $3 trillion in government 
transfers.
    So that has been the focus. I think there does need to be 
this longer term, more patient approach.
    As a matter of doing business in 2024, I would hope it 
would be paid for, and that you would have a good user fee in 
place. As a matter of doing business in 2020, it is less 
important.
    The response to the crisis is the most important thing 
right now, and that involves taking care of the economy at the 
expense of tidying up the budget. There will be harder work to 
be done from a budgetary point of view past the pandemic, but 
now is not the time to do it.
    Senator Van Hollen. So, if I may, very briefly, Mr. 
Chairman, just to follow up on that. Look, we all want a 5 year 
paid for bill; that would be the best thing. But as I 
understand your answer, you do support some immediate 
infrastructure investments as part of the emergency response 
that would be paid for like the rest of the emergency bill by 
deficit financing. Is that correct?
    Mr. Holtz-Eakin. Yes. Part of it can be deficit financing; 
I have no problem with that. I want the infrastructure to be a 
sensible long term program that in other circumstances, we 
would do. I would like it to come online beginning now so that 
its benefits accrue in 2021 at the earliest, 2022, 2023. We are 
going to need that as part of the strategy.
    Senator Van Hollen. Thank you.
    Thank you all very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks very much.
    I want to go back to something that Doug Holtz-Eakin said 
to us, maybe in his opening statement, but I think he alluded 
to the fact that State and local governments, they vote fairly 
regularly to raise user fees to pay for infrastructure in 
normal times.
    These are not normal times, but over 30 States have raised 
their user fees in the last, say, half-dozen or so years to pay 
for transportation infrastructure: Roads, highways, bridges, 
transit, and so forth.
    And we find that it is perilous for us to even tiptoe 
close, even in a full blown economy, the longest running 
economic recovery in the history of the country over the last 
11 years, and we are still almost fearful to say, Well, we 
ought to pay for transportation infrastructure.
    There is a reason why something that is so hard for us is 
really easy to stay level. One of the reasons why is the 
ability that a State legislator has or a Governor has, speaking 
as a former Governor, in putting together a capital budget that 
says that these are the projects we want to build, county by 
county by county, roads by roads, and so forth, and in order to 
be able to afford those and have the benefit in those counties 
or those cities, we are going to raise a user fee. It might be 
a couple of pennies, it can be a dime or a nickel, whatever, 
but here's what we are going to get out of it.
    In Delaware, Delaware's a little State, about 100 miles 
north to south, and 50 miles wide. The Federal Government pays 
not an inordinate amount of the share, but a significant part 
of the share, and we have any number of projects that are 80-20 
Federal-State, like you and other States do.
    I go to the ribbon cuttings for any significant, almost any 
significant transportation improvement project that has State-
Federal money. I go to the ribbon cuttings at the end of the 
day, and I explain to people that are there, this is great, we 
are going to have this great project, and then we have a ribbon 
cutting, say look what we have done, and we have also paid for 
it, and here is how we paid for it.
    We can do that in Delaware. It is harder to do in 
California, or big States like Texas, but we can do it. It is a 
part of the challenge, to make it clear to our constituents why 
we are going to raise a user fee, and what is the benefit from 
doing that.
    I want to go back again and say, I agree fully with Doug. 
The future is vehicle miles traveled, whether it doesn't matter 
if you are driving a car, truck, or a van, if you are using 
gas, you are using diesel, you are using electric, you are 
using hydrogen for fuel cells, it doesn't matter. You ought to 
be paying your fair share. If you have a heavier vehicle that 
creates more damage, then you pay more through the vehicle 
miles traveled. That is where we ought to go.
    If I could use a light switch, and do that, like, tomorrow, 
well, that is what I would do. We don't have a light switch in 
this case, we are going to use a dimmer switch. But I think we 
can use that dimmer switch in a smart way that moves us toward 
that future, and that is vehicle miles traveled.
    I want to close with two quick questions, one for Mayor 
Fischer.
    Again, Mayor Fischer, we thank you so much for your 
leadership and wish you well in Louisville, and the 
constituents that you have there, and wish you good luck as you 
assume the presidency of the National Conference of Mayors.
    Here is the question. We talked earlier about uncertainty, 
and we are still looking at a lot of uncertainty with respect 
to the economic recovery. How does that uncertainty affect 
efforts to budget, including your transportation budget for the 
coming year, which I believe starts July 1st, and how important 
is it that any Federal aid come prior to the start of that 
fiscal year, or maybe as soon thereafter as possible?
    Mr. Fischer. Thank you, Senator.
    Stability and knowing what our outlook is is 
extraordinarily important right now. Three of the riots going 
on around America, demonstration, civil unrest, we furloughed 
about 400 people. If we do not get more relief from the Federal 
Government, we are talking about 600 to 800 people more out of 
a job. Sixty percent of our budget is made up of first 
responders.
    So the people that we are asking to help us get through the 
pandemic and now keeping peace in our streets, their jobs are 
at risk. To send that kind of message in today's environment 
just boggles the imagination. So what we are doing is we will 
use our rainy day fund to get through this as long as we can.
    But cities across America desperately need a signal from 
the U.S. Senate and all of Washington that help is on the way, 
here is what it looks like, so that we can keep our cities 
running. If we can't keep our city government running, the 
economy is not going to come back. It was tough enough with the 
pandemic, but now with civil unrest, we just can't afford to be 
laying people off, No. 1, loss of jobs and just loss of 
stability as well.
    If you guys can't pass anything before July 1st, send out a 
broad signal that, here is what is coming, it is coming in mid-
July or mid-August, but we really need to say yes, it is 
coming, or you guys are on your own, so we can figure out where 
we are going to go from there. So any early visibility would be 
really appreciated by everybody all over America, the cities, 
and towns.
    Senator Carper. Thank you, Mayor Fischer.
    Mr. Chairman, I have one more question, if could ask one of 
Mr. McGough?
    Senator Barrasso. Go ahead.
    Senator Carper. Thanks so much.
    Mr. McGough, a number of States and cities have large or 
substantial rainy day funds. We started one, created one the 
year after I was elected the State Treasurer and Pete DuPont 
was elected Governor. We had the worst credit rating in the 
country under his leadership. We created a rainy day fund, 
which today has approaching $400 million, which is a lot of 
money for a little State. It is not going to be $400 million at 
the end of this year, I will assure you.
    But a lot of States and cities have large or substantial 
rainy day funds that are quickly depleted due to the virus, and 
they are now facing the prospect of running out of money, as we 
are in Delaware, not too far down the road.
    Our Federal Transportation Funds are a critical component 
of overall transportation spending. But our State and local 
partners provide maybe the lion's share in many instances for 
transportation funding.
    Question: if the Federal funds remain consistent, how will 
construction funds and related industries be impacted by the 
reduction in State and local revenues, and would you agree that 
Federal action to begin backfill as least some of the lost 
State and local funds is critical to economic recovery and 
growth?
    Mr. McGough. Senator Carper, I would agree. I believe from 
at least the State DOT standpoint, it would be a backstop that 
the loss in revenues from their portion of the motor fuels tax 
decreases is significantly affecting their budget.
    Ten States have currently canceled or delayed projects to 
the tune of $5 billion. Thirty-two States have projected that 
they expect to have cancellations or delays in projects.
    The money for the State DOTs is just for preservation. This 
doesn't change the need for a robust, multi-year infrastructure 
bill. That is what it is really going to take to put our 
economy back on track and get the growth that we need.
    Senator Carper. Thank you.
    Mr. Chairman, just a closing thought, just with you and our 
colleagues, thanks again for this hearing, and I want to thank 
our staffs for helping to put together just a terrific panel.
    Not everybody was able to participate, we have, as you 
might know, a bunch of other hearings going on, and some of 
them are really important, too.
    So not everyone could be here, but it is been just a 
wonderful hearing. We would like to continue to follow up with 
you down the road.
    Mr. Chairman, you and I have both talked about leadership 
before, and I think a lot about it; I know you do, too.
    I think leadership is the courage to stay out of step when 
everybody else is marching to the wrong tune. Think about that. 
Leadership is the courage to stay out of step when everyone 
else is marching to the wrong tune. Not sure who said that, but 
I will say I said that, at least today.
    Another thought on leadership is the words of Camus, a 
French philosopher. He used to say leaders are purveyors of 
hope. Think about that. Leaders are purveyors of hope. We are 
talking here about a lot of reasons for economy, equity, why it 
is important for us to adopt thoughtful legislation, to design, 
adopt, and fund it.
    But the other plus here is hope. There are a lot of people 
in our country right now that don't have a lot of hope, and we 
can help provide a good measure of that, a good shot in the 
arm. They say, hey, they can work together, they can get stuff 
done that will actually us in our everyday lives and futures.
    That is what is at stake here, and I am encouraged that we 
are doing the right thing. My hope is we, by our example, we 
can encourage some of our colleagues in the Senate and the 
House to do the right thing as well.
    Thank you.
    Senator Barrasso. Well, thank you so much for your 
leadership and your partnership in this entire process.
    We have letters supporting what we are doing that are here 
for the hearing, and I would like to enter in to the record 
letters of support we have received recognizing the need for 
action on highway infrastructure legislation and tout the 
benefits of the bill that we have passed in a bipartisan way.
    They include letters from the American Association of 
Highway Transportation Officials, the Portland Cement 
Association, the National Stone, Gravel, and Sand Association, 
and ITS America. ITS America stands for the Intelligent 
Transportation Society of America, so we have all sides covered 
here, Senator Carper.
    [Laughter.]
    Senator Barrasso. Without objection, those will be 
submitted.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mr. Chairman, I would also ask unanimous 
consent to submit one more for the record. It is a report from 
the American Public Transportation Association on these 
singular benefits of transit including reduced congestion, 
traffic safety benefits, better air quality, economic 
development, and more. It turns out $1 billion invested in 
transit can result in, I am told, in some $5 billion of 
economic growth, and that is a pretty good deal where I come 
from.
    Thank you.
    Senator Barrasso. And put a lot of people to work, as well, 
so thank you so much for that. Without objection, those are all 
submitted.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. I want to thank all of you for your 
testimony.
    I agree with members of the panel on both sides of the 
aisle that said we have the A Team here today, all three of 
you. I want to thank all of you.
    There are no more questions from those of us here.
    Other members may submit questions for the record. We ask 
that you respond to those, so the hearing record will then stay 
open for the next 2 weeks.
    I want to thank all of the witnesses for your time and your 
testimony.
    Thank you, Mr. Mayor, for joining us remotely.
    The hearing is adjourned.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>
</pre></body></html>
